Municipal Credit Union
MCU TRUE REWARDS VISA CARDHOLDER AGREEMENT AND DISCLOSURE
STATEMENT
RETAIL INSTALLMENT CREDIT AGREEMENT
1. Deﬁnitions: In this Agreement the words “we”, “us”, “our” and “Credit Union” mean
Municipal Credit Union, 22 Cortlandt Street, New York, New York 10007. The words
“you”, “your” and “cardholder” mean anyone in whose name a MCU TRUE REWARDS
VISA Card is issued.
Annual Percentage Rate: The cost of your credit as a yearly rate.
Finance Charge: The dollar amount the credit will cost you.
2. Purchases: Your Card can be used to buy or lease goods or buy services any place that
honors VISA. The debt that results from a Purchase will be transferred to us.
Balance Transfers: You may transfer balances from other Accounts or loans from other
credit card companies, other lenders or other balance transfers we may allow using
procedures and forms we provide. Those transfers are “balance transfers”. Balance transfers
are treated as Purchases and so the amounts transferred will be applied to your Purchases
Account. Generally, you are not authorized to transfer balances to this Account from other
Accounts or loans with us. If you request a balance transfer but do not have enough available
credit, we may transfer only a part of the requested amount.
3. Advances: Your Card can be used to obtain an advance (loan) at any of our branch ofﬁces, at
any ﬁnancial institution which honors VISA or any other authorized location. If you have
received a personal identiﬁcation number (PIN), you may use your Card and PIN to obtain
advances at any ATM that accepts your Card. Except as otherwise provided in this
Agreement, such advances shall be treated as Cash Advances under this Agreement.
4. Convenience Checks: Upon request, and from time to time, we may send you convenience
checks for use in borrowing under this Agreement. All convenience checks you use will be
treated as Cash Advances under this Agreement unless we advise you otherwise. You may
not use the convenience checks to make payments on any credit card Accounts, lines of
credit or loans with us. You understand that if you use a convenience check to make a
purchase and you have a dispute with that purchase, the dispute is not covered by the Billing
Rights Summary below. You understand that the convenience checks will not be returned to
you.
5. Purchases Treated as Cash Advances: We consider certain transactions to be the
equivalent of Cash Advances, and we reserve the right to treat them as Cash Advances under
this Agreement. Those transactions include using the Card or Account to purchase wire
transfer money orders, money orders that are not issued by a ﬁnancial institution or are not in
U.S. currency, travelers checks, casino gaming chips, lottery tickets, off-track betting, wagers
at racetracks, and tax payments.

6. Maximum Credit Limit: We will from time to time notify you of the maximum amount of
credit which we will extend you under this Agreement. A portion of your credit limit, called
the Cash Advance limit, will be available for Cash Advances. We may increase or decrease
the credit limit or Cash Advance limit at anytime. The Cash Advance limit will be shown on
your monthly statement. We will not be responsible for failing to extend credit to you under
this Agreement. You agree not to allow the balance on your Account to go over the
maximum credit limit. We will not extend credit if:
The extension of credit would cause the balance of your Account to exceed your credit
limit or if the balance of your Account already exceeds your credit limit, or
Anything has happened that allows us to declare your Account in default and therefore
immediately due, or
Your Card has been canceled or suspended, or
Your Card has expired.
If we do extend credit under any of the conditions above, it will be covered by the terms and
provisions of this Agreement. We may delay extending credit if you have previously sent us
a payment check or other negotiable instrument which has been returned as unpaid for any
reason.
7. Monthly Billing Statement: If you have a balance in your Account, we will send you a
monthly billing statement. It will show, among other things, the total amount of your
Purchases and Cash Advances Accounts, the periodic interest charges and other fees and
charges, the minimum payment due, and the date the payment is due.
8a. Periodic Interest Charge on Purchases: A periodic interest charge (finance charge) will be
imposed on each Purchase from the date the Purchase is posted to your Account until the date
it is paid in full, with the following exceptions: You may avoid periodic interest charges on
Purchases during any billing period if: (1) the opening balance on Purchases for that billing
period was zero (0); or (2) the total of payments and credits posted during the billing period
equals or exceeds the opening balance for that billing period.
We figure the Periodic Interest Charge on Purchases by applying the periodic rate to the
“average daily balance” of your Purchases Account (including current transactions). To get
the “average daily balance” we take the beginning balance of your Purchases Account each
day, add any new Purchases and subtract any payments or credits applied to Purchases that
day, unpaid periodic interest charges and other fees and charges. This gives us the daily
balance. Then, we add up all the daily balances for the billing period and divide the total by
the number of days in the billing period. This gives us the “average daily balance” which is
shown on your statement as the Balance Subject to Interest Rate for Purchases. Finally, we
multiply the average daily balance by the daily periodic rate and the number of days in the
billing period.
The daily periodic rate and corresponding annual percentage rate may vary (increase or
decrease) quarterly based upon the movement in the highest prime rate as published by The
Wall Street Journal on March 15th, June 15th, September 15th, and December 15th of each
year (“index date”). If The Wall Street Journal is not published on any of these dates, the
index will be the highest prime rate published on the ﬁrst publication date immediately
following the index date. To obtain the annual percentage rate we add, depending on your
creditworthiness, 9.15%, 10.40%, 11.90% or 13.65% to the published index. To obtain the
daily periodic rate we divide the annual percentage rate by 365. A change in the daily

periodic rate and corresponding annual percentage rate resulting from a change in the index
on the index dates stated above will be effective as of the beginning of your billing period in
the May, August, November or February next following the index date. If the annual
percentage rate increases, you will pay a higher interest charge and may pay a higher
minimum payment. The daily periodic rate and corresponding annual percentage rate in
effect within 30 days of the date this Agreement was sent to you are disclosed in the
accompanying Supplement.
8b. Periodic Interest Charge on Cash Advances: A periodic interest charge (finance charge)
will be imposed on each Cash Advance from the day the Cash Advance is obtained until the
date it is paid in full. We figure the Periodic Interest Charge on Cash Advances by applying
the periodic rate to the “average daily balance” of your Cash Advances Account (including
current transactions). To get the “average daily balance” we take the beginning balance of
your Cash Advances Account each day, add any new Cash Advances, and subtract any
payments or credits applied to Cash Advances that day, unpaid periodic interest charges and
other fees and charges. This gives us the daily balance. Then, we add up all the daily
balances for the billing period and divide the total by the number of days in the billing
period. This gives us the “average daily balance” which is shown on your statement as the
Balance Subject to Interest Rate for Cash Advances. Finally, we multiply the average daily
balance by the daily periodic rate of .04904% (corresponding Annual Percentage Rate of
17.90%) and the number of days in the billing period.
8c. Minimum Interest Charge: There will be a minimum interest charge (finance charge) of
ﬁfty cents ($.50) for each billing period in which a periodic interest charge is payable on your
Purchases Account.
8d. Cash Advance Transaction Fee: You will pay a transaction fee (ﬁnance charge) each time
you obtain a Cash Advance. The transaction fee will be 3% of the amount advanced but not
less than $2.00 or more than $30.00.
8e. Balance Transfer Fee: You will pay a transaction fee (finance charge) each time you
transfer a balance. The transaction fee will be 3% of the amount of each transfer but not less
than $2.00.
8f. Foreign Transactions/Fees: A 1% International Transaction Fee (finance charge) will be
assessed on all transactions where the merchant is located outside the U.S. (even if the
currency used is U.S. dollars). The converted transaction amount will be shown separately
from the International Transaction Fee on your billing statement. This fee will be assessed on
all international purchases, credit vouchers, and cash disbursements.
The exchange rate for transactions in a foreign currency will be a rate selected by VISA from
the range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives, or the government
mandated rate in effect for the applicable central processing date, plus the 1% International
Transaction Fee.
9. Late Payment Fee: We will charge you a late fee any time a required minimum payment is
not paid in full on or before the date it is due. The amount of this late fee will be the lesser of
(a) $25.00, or (b) the amount of the required minimum payment which was due immediately
prior to the assessment of this fee. If you make another late payment within six (6) billing
cycles of a previous late payment we will charge you the lesser of (a) $30.00, or (b) the
amount of the required minimum payment which was due immediately prior to the

assessment of this fee.

10. Returned Item Fee: We will charge you a returned item fee whenever your payment is
returned to us for insufficient funds or any other reason. The amount of this fee will be the
lesser of (a) $20.00, or (b) the amount of the required minimum payment due immediately
prior to the date the payment is returned. If both a late payment fee and a returned item fee
could be charged in any one billing cycle, only the fee eligible to be assessed first will be
charged (and not both fees).
11. Payment: You promise to pay us all the amounts borrowed under this Agreement and any
other amount which you may owe us pursuant to this Agreement.
At any time, and without penalty, you may repay all or part of what you owe. You
must, however, make at least the minimum payment each month. This minimum payment
will be the total of: (1) the greater of [a] 1/60th of the outstanding principal Cash Advances
and Purchases, or [b] $20.00, or the balance due, whichever is less; plus (2) currently
calculated periodic interest charges, Cash Advance transaction fees and other fees and
charges incurred during the billing period; plus (3) any minimum payment amount which is
past due. Paying more than the minimum payment for your Account for any billing period
will not relieve you of the obligation to pay any future minimum payment for your Account.
12. Payment Allocation: Your payment will be applied in the following order to any of these
costs you owe: (1) collection costs, (2) fees and other Card charges, (3) late charges and
periodic interest charges in the manner and order the Credit Union elects, and (4) unpaid
principal balance of accrued Purchases and Cash Advances.
13. Insurance: Credit life insurance and/or credit disability insurance may be made available to
you by the Credit Union. Insurance coverage is not required by us as a condition for the
extension of credit and may be cancelled by you at any time. A certificate of insurance
issued by the insurer will describe in detail the terms, conditions and limitations of this
coverage. This certificate will be mailed or provided to you no later than thirty (30) days
after coverage begins. If you wish to have this coverage, you will give us a written statement
that you desire to obtain insurance coverage. The monthly premiums for this insurance will
be treated as a Purchase and added to your Purchases Account balance each month.
14. Default: You will be in default if you fail to make a minimum payment when due. You
will be in default if you break any promise you made under this Agreement, or under any
other written agreement made in connection with use of the Card. You will also be in default
if you become insolvent, declare bankruptcy or die. When you are in default, the Credit
Union may demand immediate payment of the entire amount you owe under this Agreement
without giving you advance notice.
Also, we may prohibit any further transactions on your Account, cancel the Cards, and
revoke any privileges attaching to the Cards. You agree to surrender all Cards to us or our
designee upon demand. If you default, we, at our option, may refuse to pay any of your
convenience checks that are presented to us. If we decide to honor such checks, you will owe
us the amount of such checks under the terms of this Agreement.
15. No Notice or Loss of Rights: We do not have to notify you if any amount owing under this
Agreement is not paid by the day it becomes due. We can do any of the following without
notifying you or losing any right against you:

a. accept a check or money order marked “paid in full” or with similar language, as a
payment under this Agreement, or
b. give additional time for payment of any amount owing under this Agreement, regardless of
the length of any additional time we previously gave, or
c. exercise, give up, fail to exercise or delay exercising any right against any person.
16. Collection Costs: If you are in default, you agree to pay actual costs of collection. This may
include reasonable attorney fees not to exceed 20% of the amount due.
17. Amendment: We can change the terms of this Agreement, including the periodic interest
charge and the annual percentage rate, at any time. Except where limited by applicable law,
the new terms will apply both to new Purchases and Cash Advances and to the full
outstanding balance of your Account as of the day of the change. In accordance with
applicable law, we will notify you of any increased charge or change by writing to you at the
most recent address shown for you on our records.
18. Statement, Notices and Change of Address: Any statement for your Account or any notice
concerning your Account or this Agreement we send you will be sent to your current mailing
address as shown in our records concerning your Account. We can send it by regular mail. If
your mailing address changes, you must promptly notify us in writing of the new address.
Any notice you send us must be sent to: PSCU-MCU, P.O. Box 31112, Tampa, Florida
33631-3112.
19. No Assignment or Transfer: You cannot assign or transfer your rights under this
Agreement. Any assignment or transfer by you will be ineffective.
20. VISA Cards: The MCU TRUE REWARDS VISA Card is a part of this Agreement and must
be signed immediately after you have received it. Each MCU TRUE REWARDS VISA Card
issued for use with your Account is and will remain our property and must be returned to us
if requested to do so. We or anyone acting for us can keep the MCU TRUE REWARDS
VISA Card if it is used after your Account has been canceled or after we have requested you
to return it to us.
21. Continued Effectiveness: If any part of this Agreement is determined by a court to be
invalid, the rest will remain in effect.
22. Additional Cardholders, Authorized Users, and Others Using Your Account: You may
authorize others to use your Account. At your request, we may issue one additional Card to
you. This additional Card must be issued with the individual name of the authorized user
embossed thereon. You promise to pay for all Purchases and Cash Advances made by
anyone you authorize to use your Account with or without a Card, whether or not you notify
us that he or she will be using the Account and whether or not he or she exceeds any limits
imposed by you on his or her use of the Card. If another person has use of your Account and
you want to end that person’s privilege, you must notify us by writing us, by calling us, or in
person. In order to avoid unauthorized use, you should recover any Cards in that person’s
possession.
23. Use of the Card: We are not responsible if anyone refuses to honor this Card or any
convenience check or for any failure of an ATM to process a Cash Advance request. If there
is a problem with merchandise or services obtained with this Card, you may have the right
not to pay the remaining amount due on such merchandise or services. This right does not,
however, apply to merchandise or services obtained with convenience checks or with money
from a Cash Advance. Following this Agreement is an explanation of your rights to dispute

billing errors. We will have no responsibility for merchandise or services purchased with this
Card.
24. Unauthorized Use of Card: You will be liable for all authorized charges to the Account
including charges obtained by all persons whom you authorize to use the Account. You may
be liable for the unauthorized use of your MCU TRUE REWARDS VISA Card. You will not
be liable for unauthorized use which occurs after you notify us at: PSCU-MCU, P.O. Box
31112, Tampa, Florida 33631-3112, orally or in writing, of the loss, theft or possible
unauthorized use.
25. Important Notice: Do not use your credit card before you read this agreement or if this
agreement contains any blank space. You are entitled to a completely ﬁlled in copy of
this credit agreement.
26. Original Application: You agree to let the Credit Union keep the signed copy of your VISA
application to comply with federal and/or state law.
27. Governing Law/Effective Date: This Agreement and all matters arising out of or in
connection with any credit transaction shall be governed by, and construed in accordance
with the laws of the State of New York and the applicable laws of the U.S. This Agreement
incorporates by reference all the terms and conditions contained in the accompanying
Supplement. This Agreement will become effective as to Cash Advances when you use the
Card to take a Cash Advance. This Agreement will become effective as to Purchases when
you use the Card, and the sales slip or other document you sign in connection with such use
is accepted by us or our representatives at our ofﬁces in New York. (This Agreement will
not become effective as a result of unauthorized use of the Card for any Purchase which
occurs before you ﬁrst use the Card and after its loss or theft). The Credit Union may
terminate this Agreement or cancel your Card at any time. Such termination, or cancellation,
however, will not affect your obligation to pay the Account balance.
28. Lost or Stolen Cards: You must notify us immediately if a Card is lost or stolen or if you
believe there has been or is about to be unauthorized use of a Card by calling: (800) 4497728.
29. Prohibited Use: You may not use your MCU TRUE REWARDS VISA Card for any illegal
transaction.
30. Participation in Rewards Program: Your Card has automatically been enrolled in the
MCU TRUE REWARDS VISA Card Program. Your use of the Card indicates your
agreement to abide by the terms and conditions stated in the MCU TRUE REWARDS VISA
Card Program Description, a copy of which was provided to you with this Agreement.
31. Military Lending Act Disclosures: Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: The costs associated with credit insurance
premiums, fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or

accounts); and any participation fee charged (other than certain participation fees for a credit
card account).
In the event that any of the terms or provisions of this Agreement are proscribed by the
Military Lending Act, such terms or provisions shall not apply to this Agreement or your
Account. The remaining terms and provisions of this Agreement, that are not affected
thereby, shall remain in full force and effect.
Please call Municipal Credit Union at (844) 628-6969 and choose option “9” to receive
important oral disclosures pursuant to the Military Lending Act.

Dear Card Member: This is your contract. Please read it and keep it for your records because
when you use your Card, you’ve agreed to the terms in the contract.
Municipal Credit Union
By_______________________________________
Ahmed Campbell, Vice President, Loan Operations
P.O. Box 992, Peck Slip Station
New York, New York 10272-0992

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Municipal Credit Union
Customer Service
P.O. Box 31112
Tampa, Florida 33631-3112
In your letter, give us the following information:
Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.

Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.

While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on
that amount.
The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of
the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent

without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with Cash
Advances from an ATM or with a check that accesses your credit card Account do not
qualify.
3. You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at:
Municipal Credit Union
Customer Service
P.O. Box 31112
Tampa, Florida 33631-3112
While we investigate, the same rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

MCU TRUE REWARDS VISA Program Description
(“Program Description”)
As used in this Program Description, the following definitions apply:
“Card” refers to a Municipal Credit Union TRUE REWARDS VISA® card.
“Cardholder,” “you,” and “your” refer to any natural person who holds a valid Card.
“Account” refers to a Cardholder’s Card Account.
“Program” refers to the Municipal Credit Union TRUE REWARDS VISA card program.
“MCU” and “we” refer to Municipal Credit Union.
This Municipal Credit Union TRUE REWARDS VISA Card Program Description contains the
terms and conditions for participation in the Program. Please read the following terms and
conditions, and keep this Program Description for your records.
By using your card, you agree to all of the terms and conditions in this Program Description. The
terms and conditions herein shall apply to and be read together with the provisions in the MCU
TRUE REWARDS VISA Cardholder Agreement and Disclosure Statement (“Cardholder
Agreement”). In the event of any discrepancy or inconsistency between the terms and conditions
in this Program Description and those contained in the Cardholder Agreement”, the term and
conditions in this Program Description shall govern is so far as they apply to cash back rewards.
1. Cardholders will earn 1.5% cash back rewards on every $1 of eligible net purchases made with
an MCU TRUE REWARDS VISA Card. “Net purchases” means the sum of your eligible purchase
transactions minus returns and refunds. For example, if you purchase merchandise for $100, but
later return $25 of merchandise from that purchase, you will receive rewards based on a “net”
purchase amount of $75. Cash back rewards are not earned for cash advances, convenience checks,
balance transfers, ATM cash disbursements, charges relating to credit protection and/or debt
cancellation, or fees of any kind, including, but not limited to: finance charges, late fees, returned
check fees, foreign ATM fees and ATM transaction fees. In addition, MCU cash equivalent
transactions, such as the purchase, loading or re-loading of MCU gift and prepaid cards do not
earn rewards. MCU reserves the right to amend the percentage of cash back rewards earned and/or
the types of transactions that qualify to earn cash back rewards, including but not limited to special
rewards promotions that may be offered from time to time.
2. Cash back rewards cannot be earned until a MCU TRUE REWARDS VISA Account has been
established. Only Accounts enrolled in MCU TRUE REWARDS VISA Program will qualify to
accumulate cash back rewards. No retroactive credit will be provided. Cash back rewards are not
transferable between MCU rewards programs.
3. MCU TRUE REWARDS VISA is not associated with any other credit card or rewards program
offered by MCU or any third party. Cash back rewards may not be used in conjunction with any
other discount or coupon offer.

4. There are no monthly or annual caps on cash back rewards earned. Cash back rewards earned
do not expire.
5. Cash back rewards earned are updated on the date the eligible transaction posts to your Account.
Cash back rewards may be redeemed once they have been credited to your Account and have been
posted to your statement. Your credit card statement will show the accumulated cash back rewards
you have earned through the statement date. You must earn a minimum of $5.00 in cash back
rewards before you can request a redemption of cash back rewards. The minimum cash back
rewards redemption you may request is $5.00.
6. Cash back rewards may be redeemed by accessing your Account at www.nymcu.org. or by
calling MCU toll-free at 1-800-481-7338 and accessing your cash back rewards information.
7. You may choose to redeem your cash back rewards as follows: i) redeem for a statement credit
to your Account for at least $5 up to the total cash back rewards balance at the time you redeem;
or ii) redeem for a credit to the primary Cardholder’s linked MCU FasTrack checking Account or
MCU share Account. Cash back rewards redeemed for a statement credit will post to your Account
within 3 days of the date you request redemption and will be applied to your existing balance.
Cash back rewards redeemed for a statement credit will not affect your Account’s monthly
minimum payment requirements. Cash back rewards that have not been redeemed by November
30th of each year will be automatically credited to your Account and appear on your next
(December) monthly billing statement. Cash back rewards redemptions are final and will be
deducted from your cash back rewards balance on the date you request redemption.
8. In order to redeem cash back rewards, your Account must be open and current. Cash back
rewards cannot be earned or redeemed if your Account is past due, over the limit, or otherwise in
violation of your Cardholder Agreement, until your Account status is in good standing. MCU
reserves the right to determine whether your Account meets these qualifications. Cash back
rewards on Accounts closed (by you or MCU) are immediately and irrevocably forfeited and no
longer eligible for redemption. If you choose to close your Account, cash back rewards must be
redeemed at time of closure, or else cash back rewards earned by your Account will be forfeited.
9. Only the primary Cardholder of an MCU TRUE REWARDS VISA Account may request to
redeem cash back rewards.
10. Cash back rewards are the property of MCU. Cash back rewards have no cash value until such
time as you may request and receive redemption for your eligible cash back rewards. Cash back
rewards cannot be purchased, sold, transferred, bartered, pledged or assigned in any way (including
upon death, divorce, or a bankruptcy filing). A Cardholder is not entitled to compensation from
MCU or any other entity if cash back rewards are forfeited or your Account is terminated for any
reason.
11. MCU reserves the right to approve, deny, or revoke participation in the Program to any
individual for any reason. MCU, in its sole discretion, reserves the right to suspend or cancel
participation in the Program and declare all rewards forfeited in the event a Cardholder is suspected
of, or has committed, fraud, abuse, or a violation of the Program Description or the Cardholder
Agreement. Disputed or unauthorized transactions will not earn rewards.

12. Determination of tax liability (if any) is the sole responsibility of the Cardholder. You are
responsible for any personal tax liability relating to you participation in the Program and/or cash
back rewards that you redeem. You may be issued an Internal Revenue Service Form 1099 (or
other appropriate form) that reflects the value of cash back rewards redeemed. Please consult your
tax advisor.
13. MCU reserves the right to amend, modify, or change this Program Description and the cash
back rewards offerings at any time and without prior notice. For example, and without limitation,
MCU may change the amount of cash back rewards awarded for eligible card transactions or
required to redeem for cash back rewards. MCU also reserves the right to terminate the Program
at any time without prior notice. If we do make any changes to this Program Description, we will
post an updated copy on www.nymcu.org. If we terminate the Program, you will only have 90
days to request redemption of earned cash back rewards.
14. MCU shall have no liability for disagreement with the Cardholder about cash back rewards.
Discrepancies about cash back rewards are not treated as credit card billing disputes. Please refer
to your Cardholder Agreement or credit card statement(s) for details about billing disputes. MCU
shall decide cash back rewards disputes and MCU’s decision shall be final.
15. MCU is not responsible for errors and/or omissions in the Program Description.
16. The laws of New York shall govern the Program’s terms and conditions. The Program is void
where prohibited by federal, state or local law.
17. All capitalized terms are defined in this Program Description, or if not here, then in the
Cardholder Agreement, which is incorporated into this Program Description by reference.
18. For questions regarding the Program, please visit MCU online at www.nymcu.org or call us
at 1-800-481-7338.

TRV DIG. 06/19

MUNICIPAL CREDIT UNION

SUPPLEMENT TO MUNICIPAL CREDIT UNION TRUE REWARDS VISA
CARDHOLDER AGREEMENT AND DISCLOSURE STATEMENT
Special Introductory Annual Percentage Rate
The interest rate which will apply to purchases and balance transfers during the first twelve (12) months
following the opening of your account is a special introductory rate and is not on based on the index and
margin which are set forth in the MCU TRUE REWARDS VISA Cardholder Agreement and Disclosure
Statement. The special introductory ANNUAL PERCENTAGE RATE is, depending on your credit
worthiness, 0.00%, 2.90%, 3.90% or 5.90%, which correspond to a Daily Periodic Rate of .00000%,
.00795%, .01069%, or .01616% respectively. Beginning in the billing cycle which next follows the
expiration of the twelve (12) month introductory rate period, the variable annual percentage rate
described in your MCU TRUE REWARDS VISA Cardholder Agreement and Disclosure Statement will
apply to any existing and new purchase and transferred balances. The ANNUAL PERCENTAGE RATE
which would have applied using the margin and index in effect on June 15, 2019 is, depending on your
creditworthiness, 14.65%, 15.90%, 17.40% or 19.15%, which correspond to a Daily Periodic Rate of
.04014%, .04356%, .04767% or .05246% respectively.
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

0.00%, 2.90%, 3.90% or 5.90% Introductory APR for the first twelve
(12) months depending on your creditworthiness.

After that, 14.65%,

15.90%, 17.40%

19.15%

or
APR, based on
your creditworthiness at account opening. These APRs will vary with the market based
on the Prime Rate.*
APR for Cash Advances

17.90%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on Purchases and Balance Transfers if you pay your entire
balance by the due date each month. We will begin charging interest on Cash
Advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $.50.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees
Balance
Transfers
Cash Advances

Either $2.00 or 3% of the amount of each Balance Transfer, whichever is greater.
Either $2.00 or 3% of the amount of each Cash Advance, whichever is greater
(maximum $30.00).

Foreign
Transactions

1% of each transaction in U.S. dollars.

Penalty Fees
Late Payment
Returned Payment

Up to $30
Up to $20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases).”
*Variable rates may change quarterly based upon the movement in the highest prime rate as published in
The Wall Street Journal on March 15th , June 15th, September 15th and December 15th of each year (the
“Prime Rate”). We add, depending on your creditworthiness, 9.15%, 10.40%, 11.90% or 13.65% to the
Prime Rate to determine the Purchases/Balance Transfers APR. The Prime Rate as of
June 15, 2019 was 5.50%. (Refer to Section 8a. of the Cardholder Agreement for more details.)
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in the Cardholder Agreement.
TRV COMB 06/19

Municipal Credit Union
MUNICIPAL CREDIT UNION TRUE REWARDS VISA – PRICING INFORMATION
Annual Percentage Rate
(APR) for Purchases and
Balance Transfers

14.65%, 15.90%, 17.40%, or 19.15%, based on your creditworthiness

APR for Cash Advances

17.90%

Paying Interest

Minimum Interest Charge

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on Purchases and Balance Transfers if you pay your entire balance by the
due date each month. We will begin charging interest on Cash Advances on the transaction
date.
If you are charged interest, the charge will be no less than $.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Annual Fee

None

Transaction Fees
Balance Transfers

Either $2 or 3% of the amount of each Balance Transfer, whichever is greater.

at account opening. These APRs will vary with the market based on Prime Rate.

Cash Advances

Either $2 or 3% of the amount of each Cash Advance, whichever is greater (maximum
$30.00).

Foreign Transactions

1% of each transaction in U.S. dollars.

Penalty Fees
Late Payment
Returned Payment

Up to $30
Up to $20

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See
How Do We Calculate the Interest Charge? below for more details.

Other Things You Should Know
Can We Increase Interest Charges & Fees?
We may increase your interest charges for new transactions and your fees after the first year of the account. We may change
any other terms of your account at any time. We will give you notice of any changes as required by law.
How Do We Calculate Variable Rates?
Variable rates may change quarterly based upon the movement in the highest prime rate as published in The Wall Street
Journal (the “Prime Rate”) on March 15th, June 15th, September 15th and December 15th of each year (the “index dates”). We
add, depending on your creditworthiness, 9.15%, 10.40%, 11.90% or 13.65% to the Prime Rate on each index date to
determine the Purchases/Balance Transfers APR. A change in the APR resulting from a change in the index on any of the
above index dates will be effective as of the beginning of your billing period in the May, August, November or February next
following that index date. The Prime Rate as of June 15, 2019 was 5.50%.
What Are the Daily Periodic Rates Used To Calculate Your Interest?
We determine your daily periodic rate by dividing the corresponding Annual Percentage Rate by 365 and round to the nearest
1/100,000th of 1%. If the daily periodic rates and corresponding Annual Percentage Rates increase, the interest charge will
TRV 06/19

increase and our minimum payment may be greater. See How Do We Calculate The Interest Charge? below for more details.
Based on the rates set forth in the above table, the daily periodic rate for your Purchases/Balance Transfers APR, would be
.04014%, .04356%, .04767% or .05246% and the daily periodic rate for your Cash Advances APR would be .04904%.

How Can You Avoid Paying Interest Charges?
Each month you pay your “New Balance” of Purchases in full by the due date, you will have a minimum grace period of 25
days with no interest charge on all new Purchases and Balance Transfers. If you have been paying your Purchases Account in
full with no interest charges applied and you do not pay your next bill in full, prorated interest charges will be assessed. There
is no grace period on Cash Advances or on any new transaction on your Purchases Account when there is an unpaid balance
from a previous bill.
How Do We Calculate The Interest Charge?
The Interest Charge Calculation Methods applicable to your Purchases and Cash Advances Accounts are as follows:
Purchases Account – The Interest Charge for a billing cycle is computed by applying the applicable periodic rate to the
“average daily balance” of your Purchases Account (which includes Balance Transfers). To get the average daily balance, we
take the beginning balance of your Purchases Account each day, add any new Purchases, or Balance Transfers, and subtract
any payments, credits, unpaid periodic interest charges and other unpaid fees and charges. This gives us the daily balance.
Then we add up all the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This
gives us the average daily balance. Finally, we multiply the average daily balance by the daily periodic rate (the APR divided
by 365) and the number of days in the billing period.
Cash Advances Account – The Interest Charge for a billing cycle is computed by applying the applicable periodic rate to the
“average daily balance” of your Cash Advances Account. To get the average daily balance, we take the beginning balance of
your Cash Advances Account each day, add any new Cash Advances, and subtract any payments, unpaid periodic interest
charges and other unpaid fees and charges. This gives us the daily balance. Then we add up all the daily balances for the
billing cycle and divide the total by the number of days in the billing cycle. This gives us the average daily balance. Finally,
we multiply the average daily balance by the daily periodic rate (the APR divided by 365) and the number of days in the billing
period.

TRV 06/19

